No. 20-1410

3Jn the supreme Court of the lniteb States
DR. XIULU RUAN,

Petitioner,
V.

UNITED STATES OF AMERICA,

Respondent.
On Petition For A Writ Of Certiorari
To The United States Court Of Appeals
For The Eleventh Circuit
CERTIFICATE OF SERVICE
I, D. Hunter Smith, a member of the Bar of this
Court, hereby certify that on this 20th day of July,
2021, I caused to be served by first-class mail three
copies of the Reply Brief for Petitioner in the abovecaptioned case on each of the following:
Elizabeth Prelogar
Acting Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, NW, Room 5616
Washington, DC 20530-0001
(202) 514-2203
SupremeCtBriefs@USDOJ.gov

Counsel for Respondent United States of America

John Patrick Couch
#14290-003
FCI Forrest City, Low
P.O. Box 7000
Forrest City, AR 72336- 7000

Prose
I further certify that all parties required to be
served have been served.

D. Hunter Smith
July 20, 2021

